Report No. 13-36                                                                                                               September 27, 2013
                                        Appalachian Regional Commission
                                                          Evaluation Report


                                                         Table of Contents

     Results of Evaluation .................................................................................... 1

     Problem Areas ............................................................................................... 2
        Problem Area 1: The Commission’s system did not fully measure patching status...... 2

        Problem Area 2: The Commission’s automated process did not fully patch all systems.
        ........................................................................................................................................ 3

     Management Comments and Our Analysis ............................................... 4
     Objective, Scope and Methodology ............................................................. 4




                                                                        -i-
                       Appalachian Regional Commission
                                   Evaluation Report


                              Results of Evaluation
The purpose of this evaluation was to answer the question:

       Has the ARC implemented an effective, comprehensive system maintaining patch
       levels?

No. While the ARC did have a process in place to apply patches, the existing process was
not fully effective.

The process for patching ARC systems is ineffective and exposes the Commission’s
information and systems to significant risk. On June 28, 2013 we reviewed the patch
status of 45 machines and found that:

   •   All but five systems were missing High or Critical Severity patchesa High
       Severity patch is a software change designed to prevent intruders from being able
       to run code of their choice on the network or elevating their privileges to take
       control of Commission systems.
   •   1258 High or Critical Severity patches were missing on Commission systems.
   •   An average of 28 High or Critical Severity patches were missing from each
       system.
   •   18 systems (40%) were missing patches that had been released one year ago or
       prior.
   •   An average of 19 High or Critical severity patches for third-party (non-Microsoft)
       software were missing from each system.

When software vendors identify problems with their applications or operating systems,
they create and release updates to the software to resolves these issues. These updates are
known as ‘patches.’ These patches are made available to the public, who install these
patches to rectify the problems they are intended to solve.

The majority of patches released today are designed to correct previously-identified
security flaws. Systems without these patches are vulnerable to these exploits, which
could result in an intrusion by malicious individuals. Vulnerabilities defined as High or
Critical severity identify those with the highest risk to the systems in question. Once a
patch is released, the risk increases for unpatched systems, because it has been publically
announced that a flaw is present, and the software patch can be analyzed to precisely
identify the nature of the security flaw. Malicious parties use this information to create
new exploits if they aren’t available already.

In order to manage and reduce the risk to the organization, those responsible for
managing its systems must continually track the patched status of those systems, and
deploy patches as soon as they are made available. If systems are allowed to remain


                                           -1-
                        Appalachian Regional Commission
                                   Evaluation Report


unpatched, the ease with which they can be attacked can nullify all other security
measures in place at the organization. Patching systems is a primary means of securing
systems, and despite potential assertions to the contrary, there are no effective substitutes
for this basic security measure. Every unpatched system that connects to the Internet
increases the risk to the organization.

The patching process for ARC systems was ineffective because the Commission did not
measure its patch status, and it did not have an automated process to fully patch all
systems. These problem areas will be discussed in detail in the rest of this report.



                                   Problem Areas

                                 Problem Area 1:
           The Commission’s system did not fully measure patching status.


The Commission did not measure the patching status of its systems. This lack of
monitoring was partially responsible for the fact that systems were not patched. Our
analysis of 45 workstations determined that High or Critical severity patches were
missing from 40, or 89% of all systems tested. On average, each system was missing 28
High or Critical severity patches.

Effective management is only possible with consistent measurement. Because the
Commission did not monitor the patch status of its systems, it could not manage the
patching process, or by extension, the security of its network.

Systems with missing patches expose more than just a single computer to risk, but instead
they expose all data and systems on the network to risk. An exploited system serves as
the entry point into the network for an attacker. Once a foothold is gained, attackers can
explore and potentially exploit all systems on that network. One weak link effectively
circumvents the other security applied to the network perimeter or the application itself.

In order to execute the mission of the Commission, senior management must remain
informed of risks to their underlying systems. Because they were not regularly informed
with an accurate picture of the Commission’s information security status, they were not
aware of the risks to the confidentiality, integrity, and availability of Commission data
and systems.




                                            -2-
                       Appalachian Regional Commission
                                  Evaluation Report


Recommendation 1: Implement a specialized software tool to scan the patch status of all
Commission equipment at least weekly. This tool should be distinct from the tool used to
patch systems.

Recommendation 2: Report patching status monthly to Commission executive
management.




                               Problem Area 2:
        The Commission’s automated process did not fully patch all systems.


As of June 28, 2013, the Commission was missing 1258 High or Critical patches on its
systems. Due to the sheer number of patches released and the labor required to manually
apply them, it is impossible to rely on manual processes to apply patches in a timely
manner, and any process that is unable to automatically patch third-party software in
insufficient to protect the Commission’s data. While Microsoft provides robust, free
tools to apply patches to its own software, on its own this software is unable to provide
automated patching for third-party software. Third-party software includes common
items such as Mozilla Firefox, Adobe Acrobat, and Oracle Java. Of the 45 systems
analyzed, 40 were missing High or Critical patches for third-party software. On average,
each system was missing 19 patches for third-party software. Attacks of vulnerable third-
party software are one of the primary vectors of intrusion.

High or Critical severity patches for all software should be applied Commission-wide
within days of release by their manufacturer. To achieve the best protection, these
patches should be installed for most systems on the same day a patch is released, because
exploits are generated quickly from the information provided as part of the patch. Any
delay beyond the release date of a patch increases the risk exposure. For this reason,
Microsoft preconfigures Windows operating systems to download and install available
patches every night.

Commission staff should be protected from malicious content encountered while
browsing the Internet or received via email. Unpatched systems are missing this basic
level of protection, and greatly increase the risk of system-wide compromise. Even new
builds of systems will be missing patches, and should be fully patched before being
brought online.

The Commission’s current patching method demands significant resources because it is
not fully automated. Because it does not immediately apply all necessary High or
Critical severity patches, the Commission is operating under a high level of risk. As a


                                          -3-
                       Appalachian Regional Commission
                                  Evaluation Report


result, the Commission does not have the most basic level defense to secure its systems
and its network. The current patching process does not effectively protect the
Commission’s information or systems.

Recommendation 3: Implement a specialized software tool to automatically patch all
Commission systems.

Recommendation 4: Patch all vulnerable software on all systems.

Recommendation 5: Apply all High or Critical severity patches on the day of release.

Recommendation 6: Fully patch all new systems as part of the build process.



              Management Comments and Our Analysis
On July 26th, 2013, management provided comments on the draft evaluation report. They
concurred with our assessment that there are two problem areas that resulted in the
absence of an effective, comprehensive system maintaining patch levels. They
subsequently provided management decisions that would address each of the six
recommendations.

At the time of the final report, the Commission had purchased and deployed new tools to
improve its ability to fully patch all of its systems in a timely fashion.



                    Objective, Scope and Methodology
Objective:
       Has the ARC implemented an effective, comprehensive system maintaining patch
       levels?

Scope:
       The scope of this evaluation included all servers, workstations, and other network
       equipment providing services and security on ARC network.


Methodology:



                                          -4-
                       Appalachian Regional Commission
                                  Evaluation Report


1. Used Nessus with current definitions to perform an authenticated scan of all
   infrastructure and endpoints related to the ARC network.
2. Identified systems that could not be scanned due to technical or policy issues, and
   identified a means of configuring these systems so they could be scanned.
3. Analyze vulnerabilities to remove false positives, and classify findings to identify
   trends and the causes of unpatched vulnerabilities.




                                           -5-
